                                  Department of Energy
                                      Washington, DC 20585

                                      December 10, 2004


 MEMORANDUM FOR THE ADMINISTRATOR, NATIONAL NUCLEAR
                    SECURITY ADMINISTRATION
                    THE DIRECTOR, OFFICE OF MANAGEMENT, BUDGET
                    AND EVALUATION/CHIEF FINANCIAL OFFICER

FROM:                    William S. Maharay r
                         Deputy Inspector General for Audit Services
                         Office of Inspector General

SUBJECT:                 Federal Managers' Financial Integrity Act Audit Report
                         Audit Report No.: OAS-L-05-01


We reviewed selected aspects of the Department of Energy's (Department) implementation of the
Federal Managers' Financial Integrity Act (FMFIA) of 1982. The objective of FMFIA, and the
Department's management control program, is to ensure that controls are working effectively and
that program and administrative functions are performed in an economic and efficient marner
consistent with applicable laws.

As a result of its evaluation of management controls, the Department identified "significant
issues", which it considered to be the most serious matters facing the Department. While not
material weaknesses as defined under FMFIA, the Department has undertaken a campaign to
resolve these issues.- Our most recent Special Report: Management Challengesat the
Departmentof Energy (DOE/IG-0667, November 2004), describes several of these issues that
we considered to be among the most serious challenges facing the Department and details
progress made to address them. The Department's efforts, if ultimately successful, should
enhance the Department's ability to correct problems and strengthen its overall management
control structure.

The objective of our audit was to determine whether the Department's Fiscal Year 2004
evaluation of management controls was carried out in a reasonable and prudent manner and
adequately disclosed previously detected waste or other reportable problems. The attachment to
this report details the scope and methodology used to conduct our audit.

RESULTS OF AUDIT

The Department's Fiscal Year 2004 evaluation of management controls was generally carried out
in a reasonable and prudent manner and adequately disclosed known instances of waste or other
reportable problems. However, all of the Departmental elements did not conform to the
requirements of the Department's management control program. Specifically:




                                      SPrinted with soy ink on recycled paper
                                                  -2-

    *  The Office of Legacy Management did not conduct the required evaluation or report on
       its management controls. This office was newly established in December 2003 and
       funded at about $37 million in Fiscal Year 2004;
    * Three out of 44 program elements did not include detailed corrective action plans for
       their new and/or prior year reportable problems as required. The Department uses the
       corrective action plans to identify root causes, establish critical milestones, assess
       progress, track corrective actions, and ensure timely completion;
    * The Department did not update its listing of entities required to prepare and submit
      assurance memoranda that was needed to ensure the Department's evaluation of
      management controls included all appropriate programs, administrative functions, and
      other sensitive areas;.and,
    * Twenty-three Headquarters and field elements did not submit their assurance memoranda
      in time to meet established milestones. In one case, the National Nuclear Security
      Administration (NNSA) submitted its assurance memorandum 15 days after the
      Departmental Internal Control and Audit Review Council (DICARC) convened to discuss
      the results of the management controls evaluations required to comply with FMFIA.

Although the Office of Program Liaison and Financial Analysis identified similar concerns
during quality assurance reviews, such information was not always communicated to program
officials in time for them to modify or correct their evaluation reports. When issues were
communicated, they were usually provided informally to working level officials. In many
instances, program officials lacked the time to correct deficiencies in their evaluation reports
because they did not complete the reports until after the deadline for submission. As we have
noted in previous years, problems of the sort identified, if left uncorrected, could lessen the level
of assurance the Secretary can provide on the status of the Department's management controls to
the President and the Congress.

SUGGESTED ACTIONS

The Department must ensure it has a rigorous process to evaluate management controls if it
expects to be successful in implementing new requirements for assessing internal controls over
financial reporting currently under consideration by the Office of Management and Budget. In
light of these concerns, the Director, Office of Management, Budget and Evaluation/Chief
Financial Officer, should improve the Department's quality assurance process for FMFIA and
work closely with the programs to ensure deficiencies are identified and corrected in a timely
fashion. Specifically; the Director should:

   *    Formalize the quality assurance review process and direct significant findings and
        concerns to the head of responsible program elements:
                                                 -3-

      *   Re-emphasize the importance of completing and timely reporting on the evaluation of
          management controls at the program level; and,
      *   Annually update the list of entities required to prepare and submit assurance memoranda
          and work closely with any new entities to ensure successful completion of the
          management evaluation process.

In making our assessment relating to these and other matters, we coordinated closely with the
Office of Program Liaison and Financial Analysis officials and discussed the suggestions noted
above on November 24, 2004. They agreed to act on our suggestions and coordinate with
Departmental elements, including NNSA, to resolve these concerns before next year's FMFIA
process. Since no recommendations are being made in this letter report, a formal response is not
required. We appreciate the cooperation of the various Departmental elements that provided
information or assistance.

Attachment

cc:       Chief of Staff
          Director, Policy and Internal Controls Management, NA-66
                                                                                       Attachment


SCOPE AND METHODOLOGY

The Department of Energy's (Department) evaluation of its control systems was examined for
compliance with the Federal Managers' Financial Integrity Act (FMFIA) of 1982, the
Government Accountability Office's "Standards for Internal Control in the Federal Government",
Office of Management and Budget Circulars A-123 and A-127, and DOE Order 413.1.A,
"Management Control Program." The results of the Department's evaluation of control systems
was included in the Department's Fiscal Year 2004 Performance and Accountability Report.
This report provides critical financial and program performance information in a single report as
authorized by the Reports Consolidation Act of 2000 and addresses a number of significant
issues faced by the Department.

Our review was made in accordance with generally accepted Government auditing standards,
which included tests of internal controls and compliance with laws and regulations to the extent
necessary to satisfy the audit objective. Because our review was limited, it would not necessarily
have disclosed all internal control deficiencies that may have existed at the time of our audit. We
assessed the Draft Performance and Accountability Report, as it relates to FMFIA along with
supporting documentation filed by selected Departmental organizations, to determine whether
the results of their evaluations were accurately reported. Also, we performed work to determine
whether the Department developed corrective action plans for significant issues identified during
its Fiscal Year 2004 FMFIA reporting process.
/I/A N,'LAtB                                  Department of Energy
      Nea SfyAdmRa0
Na•oa.ioa)                             National Nuclear Security Administration
                                                Washington, DC 20585



                                                   DEC 17 2004
           MEMORANDUM FOR                   William S. Maharay
                                            Deputy Inspector General


                                                                                   A
                                              for Audit Services

           FROM:                            Michael C. Kane
                                            Associate Administrator
                                               for Management and Administration

           SUBJECT:                          Recommendations for the Evaluation of NNSA's Federal
                                             Managers' Financial Integrity Act Processes

           On December 10, 2004, the Inspector General (IG) issued their Letter Report, OAS-L-05-
           01, "Federal Managers' Financial Integrity Act Audit Report." NNSA appreciates the
           IG's annual review of the Federal Managers' Financial Integrity Act (FMFIA) process
           and views the results of the annual review as a report card, in part, of NNSA's Internal
           Controls process.

           As I am sure you are aware, NNSA built its Internal Control's process on the statutory
           requirements of the FMFIA and on the requirements of Office of Management and
           Budget (OMB) Circular, A-123. When NNSA was established, we used these two
           documents as the source documents, rather than the Department's Order on Management
           Controls, to integrate our Internal Controls structure into the NNSA methodology of
           operations. One of the principal reasons for utilizing this approach is the NNSA Act that
           defines NNSA as a separately organized agency within the Department. It is because of
           this organizational distinction, and the NNSA's approach to managing internal controls
           that I am writing you to explain NNSA's approach to the requirements of the FMFIA, and
           the subsequent annual IG review of the process. I would also like to request a meeting to
           further discuss differences between the Department's processes and NNSA's processes.

           Below are comments related to the RESULTS OF AUDIT portion of the Letter Report:

            1.        There is a phrase that indicates that "Departmental elements did not conform to
                      the requirements..." NNSA has no issue with the IG's statement as it recognizes
                      the NNSA approach which does not conform with the requirements of the
                      Department's management control program. That was by design as I will describe
                      later in the memorandum. Equally iinportant is the term "Departmental
                      elements." NNSA believes that it should not be included in the grouping of
                      programmatic elements. As a separately organized agency within the Department,
                      we have three programmatic and four administrative/staff functions that are at the
                      same level as Program Secretarial Offices. Additionally, our eight site offices and
                      our service center would normally be considered Departmental elements if they

                                               @    Printedwithsoyinkon recycled
                                                                               paper
       were not part of NNSA. Our position that it is inaccurate to include NNSA with
       other Departmental elements is not precedent setting. NNSA's budget is
       formulated and developed separately from the rest of the Department. While the
       budget is submitted to OMB under one cover, once the budget reaches OMB the
       NNSA portion is provided to the Defense examiner while the remainder of the
       Departmental budget is provided to the Energy and Water examiner;

2.     The statement that certain program elements did not include detailed corrective
       action plans is also correct, as NNSA was one of those who did not include such
       plans. NNSA believes that preparing corrective action plans solely for the
       purpose of meeting the Departmental Order duplicates management,,
       administrative, and programmatic efforts that NNSA has in place to address our
       deficiencies. For example, we prepare corrective action plans for individual
       audits and reviews that are conducted by elements external to NNSA. However,
       the NNSA Planning, Programming, Budgeting and Evaluation process is a process
       that integrates elements from our Strategic Plan, the President's Management
       Agenda, Management Challenges - from IG, GAO, and self-generated, and
       external reports and develops performance measures for each program element.
       This process is carried downward through NNSA programs, Site Offices, the
       Service Center, and the contractors. A specific example of not having a corrective
       action plan but incorporating the topic into the process described is that of
       Stockpile Stewardship; and,

3.     The comment that NNSA's letter did not submit its Assurance Memorandum until
       15 days after the Departmental Internal Control and Audit Review Council
       (DICARC) convened is not completely accurate. Our memorandum was signed
       and dispatched prior to the DICARC meeting (final draft was submitted to the
       staff office significantly prior to the meeting). The possibility that it was held up
       somewhere outside of NNSA is troubling, and we will determine what caused the
       delay in delivery of the final product and adjust our processes accordingly, if
       appropriate.

I have cited these examples of NNSA's differences as the basis to request a meeting with
you and/or your appropriate staff in order to determine the need for the Office of
Inspector General to review NNSA separately from Departmental elements. NNSA
heartily endorses the FMFIA processes and seeks to make our controls system as efficient
and effective as possible.

Should you have any questions regarding this memorandum or desire to meet in order to
better understand our structure and methodology of operations, please contact Richard
Speidel, Director, Policy and Internal Controls Management.
DOE F 1325.8
(08-93)
United States Government                                                            Department of Energy


Memorandum                                                                     OFFICE OF INSPECTOR GENERAL


          DATE:    'JAN 0 6 2005
     REPLY TO
      ATTN OF:    IG-34 (AO4FF003)

     SUBJECT:     Final Report Package for "Federal Managers' Financial Integrity Act Audit
                  Report" Audit Report No.: OAS-L-05-01
           TO:    Rickey R. Hass, Assistant Inspector General for Audit Operations

                  Attached is the required final report package on the subject audit. The pertinent details are:
                  1. Actual Staff days:      52.5

                     Actual Elapsed days: 101

                  2. Names of OIG and/or contractor audit staff:

                     Assistant Director:         Kevin W. Majane
                     Team Leader:                William R. Lubecke
                     Auditor-in-Charge:          Richard L. Marvin
                  3. Coordination with Investigations and Inspections: Contact made for
                     coordination purposes via email on September 8, 2004 with Brenda Froberg
                     (Inv.), Vera Shepard (Inv.), and Fatima Pashaei (Insp.).




                                                                    rge C ard, Director
                                                                Science, Energy, Technology, and
                                                                    Financial Audits
                                                                Office of Audit Services
                                                                Office of Inspector General

                  Attachments:
                  1. Final Report
                  2. Monetary Impact Report
                  3. Audit Project Summary Report
                  4. Audit Database Information Sheet
                  MONETARY IMPACT OF REPORT NO.: OAS-L-05-01


1. Title of Audit:     Federal Managers' Financial Integrity Audit Report

2. Division:           Science, Energy, Technology, and Finacial Audits

3. Project No.:        A04FF003

4. Type of Audit: (Definitions and examples of audit types are found in Chapter 2 of the OIG
Audit Manual.)

      Financial:         X                              Performance:
         Financial Statement                              Economy and Efficiency
         Financial Related                X               Program Results
      Other (specify type):
5.

                                                                                       MGT.     POTENTIAL
        FINDING               BETTER USED             QUESTIONED COSTS               POSITION    BUDGET
                                                                                                 IMPACT
                                   Recurring
(A)            (B)          (C)       (D)         (E)           (F)          (G)       (H)             ()
               Title       One      Amount     Questioned   Unsupported     Total    C=Concur         Y=Yes
                           Time       Per       Portion       Portion                N=Noncon         N=No
                                     Year                                 _U=Undec




TOTALS--ALL FINDINGS       0.00    0.00        0.00         0.00          0.00       C          N


6. Remarks: Our issues did not result in funds better used or questioned costs.

7. Contractor:                                   10. Approvals:
8. Contract No.:                                 Division Director/Date:                  j,/
                                                                                           ,    ///
9. Task Order No.:                               Technical Advisor & D               ,e                       -
                                           Office of the Inspector General                       (OIG)
                                     Audit Project Office Summary (APS)

                                                                                                                              Page 1
Report run on:                 December 22, 2004 9:15 AM


  Audit#: A04FF003            Ofc:   FFA     Title: FMFIA - FY 2004

                                                              S*      Milestones    **
                                            Planned                 End of Survey            Revised           Actual


   Entrance Conference:......              01-OCT-03                                       31-AUG-04         31-AUG-04

   Survey:...................
   Draft Report:.............          01-NOV-04
   Completed      (With Report):.      30-NOV-04                                           15-NOV-04         10-DEC-04   (R
   ------------      Elapsed Days:                  426                                             76           101
                                                                                                   Elap. Less Susp:
   Date Suspended:                                                 Date Terminated:
   Date Reactivated:                                               Date Cancelled:
   DaysSuspended(Cur/Tot):                   (                    )Report Number:          OAS-L-05-01
   Rpt Title:                                                      Report Type:            LTR   LETTER REPORT




                                             ***          Audit Codes and Personnel              ****
   Class:    FIN       FINANCIAL
   Function:           Not Found
   MgtChall:           Not Found
                                                                                  AD:      530     MAJANE
  ISite:               Not Found
                                                                              AIC:         630     MARVIN
   SecMiss:            Not Found
                                                                         Team Ldr:         232     LUBECKE
   PresInit:           Not Found                                         Tech Adv:         544     ACTON

                                                   ****       Task Information ****

          Task No:
          Task Order Dt:                                          CO Tech. Rep:
          Orig Auth Hrs:                                           Orig Auth Costs:
        Current Auth:                                             Current Auth Cost:
      S Tot Actl IPR Hr:                                          Tot Actl Cost:


                                                          * **.    Time Charges     ****                '

                     Emp/Cont Name           Numdays                    Lait Date
                     BLEIGH, S                              2.3         27-NOV-04
                     LUBECKE, W                           10.1          11-DEC-04
                     MARVIN, R                            40.1          11-DEC-04
                     Total:                               52.5

                                  MKeywords*                            ***


                     FMFIA
                  AUDIT DATABASE INFORMATION SHEET


1. Project No.: A04FF003

2. Title of Audit: Federal Managers' Financial Integrity Act Audit Report

3. Report No./Date: OAS-OL-05-01/December 10, 2004

4. Management Challenge Area: None

5. Presidential Mgmt Initiative: Improved Financial Performance

6. Secretary Priority/Initiative: None

7. Program Code: ME

8. Location/Sites: Headquarters

9. Finding Summary:

   All Departmental elements did not conform to the requirements of the management
   control program. Specifically, one element did not conduct the required evaluation, three
   did not include required action plans, twenty-three did not file on time, and the
   Department did not update its listing of entities required to file assurance memos.

10. Keywords:

   FMFIA
   Management Control
   Internal Control
   Reportable Problems
   Integrity Act




                                           2
